                                                EMPLOYMENT AND
                                                TRAINING
                                                ADMINISTRATION

Office of Inspector General—Office of Audit 





                                                RECOVERY ACT: ACTIONS NEEDED TO BETTER
                                                ENSURE CONGRESSIONAL INTENT CAN BE MET
                                                IN THE WORKFORCE INVESTMENT ACT ADULT
                                                AND DISLOCATED WORKER PROGRAMS




                                                 This audit was performed by WithumSmith+Brown PC, Certified Public Accountants,
                                                 under contract to the Office of Inspector General, and by acceptance, it becomes a
                                                 report of the Office of Inspector General.



                                                                       ______________________________
                                                                       Assistant Inspector General for Audit



                                                                              Date Issued :                March 31, 2010
                                                                            Report Number:               18-10-004-03-390
U.S. DEPARTMENT OF LABOR                                     March 2010
OFFICE OF INSPECTOR GENERAL
Office of Audit                                              RECOVERY ACT: ACTIONS NEEDED TO
                                                             BETTER ENSURE CONGRESSIONAL
BRIEFLY…                                                     INTENT CAN BE MET IN THE WORKFORCE
                                                             INVESTMENT ACT ADULT AND
                                                             DISLOCATED WORKER PROGRAMS
Highlights of Report Number: 18-10-004-03-390, to the
Assistant Secretary for Employment and Training.
                                                             WHAT OIG FOUND
WHY READ THE REPORT
                                                             We found ETA issued comprehensive, timely guidance
Congress enacted the American Recovery and                   to the states on Recovery Act provisions and use of
Reinvestment Act of 2009 (Recovery Act), to promote          funds. However, we found inconsistencies and a lack of
economic recovery, and assist those impacted by the          the Act’s provisions in two of six local workforce
recession. The Department of Labor (DOL) received            investment board (LWIB) plans. For example, a year
$1.75 billion for the Workforce Investment Act (WIA)         after the Act’s passage, one plan has not been
Adult and Dislocated Worker programs to provide              completed, and another local plan does not mention the
employment and training services for some of the most        Recovery Act. We found a strong positive correlation
economically at-risk populations.                            between Recovery Act provisions contained in written
                                                             state and local plans and implementation of those
The U.S. DOL, Office of Inspector General (OIG)              provisions. However, when provisions were not present
audited the Employment and Training Administration’s         or the plan was not accurate, implementation of the
(ETA’s) implementing guidance, and the plans of state        Act’s provisions was not adequate. As a result, we
and local organizations that received Recovery Act           believe $24 million is at risk of not being spent in
funding. The Act focused on funding employment and           accordance with provisions of the Recovery Act. Ten
training activities including child care and needs-related   percent of funds received by LWIBs are allowed to be
payments, to help individuals attend training. It also       used for administrative costs, with 90 percent required
provided funds for institutions of higher education to       to be spent on employment and training services
train multiple individuals for high-demand jobs.             including supportive services. We found LWIBs
                                                             supportive services accounted for up to 10 percent of
WHY OIG CONDUCTED THE AUDIT                                  Recovery Act funding. We found mixed results in terms
                                                             how LWIBs are making needs-related payments to
Our audit objectives were to answer the following
                                                             individuals in job training. Four LWIBs are making these
questions:
                                                             payments or intend to make them on a limited basis;
    1. 	 How are the Recovery Act funds for WIA Adult        two do not plan to. There are mixed results in serving
         and Dislocated Worker programs being spent or       target populations; two LWIBs did not address the
         planned to be spent on employment and               priority of service requirement in their plans for those on
         training services, supportive services, and         public assistance and other low income individuals. All
         administration as required by the Act?              six LWIBs are using new flexibilities in the Act by
    2. 	 How are the Recovery Act funds being spent          contracting directly with institutions to train multiple
         and planned to be spent to serve targeted           individuals in high-demand occupations.
         populations as required by the Act?
    3. 	 How are Workforce Investment Boards making          WHAT OIG RECOMMENDED
         use of the new flexibilities in the Recovery Act
         for contracting for training?                       To better ensure Recovery Act funds for the WIA Adult
    4. 	 How are the Recovery Act funds being spent          and Dislocated Worker programs are spent as intended
         and planned to be spent for training and            by the Congress we recommended the Assistant
         supporting program participants for employment      Secretary for Employment and Training take actions
         in high-demand jobs, including but not limited      focusing on developing strategies to promote
         to, “green jobs” as required by the WIA program     consistency in the LWIB plans with Recovery Act
         and the Recovery Act?                               provisions, and timeliness in developing those plans.

READ THE FULL REPORT                                         ETA provided comments on our report disagreeing with
                                                             our conclusion that deficiencies in the New York City
To view the report, including the scope, methodology,        LWIB plan increased the risk $24 million already
and full agency response, goes to:                           obligated by the LWIB may not be spent in accordance
                                                             with specific Recovery Act provisions. We disagree with
http://www.oig.dol.gov/public/reports/oa/2010/18-10-         ETA’s comments and provide our analysis in the report.
004-03-390
                            Prepared by WithumSmith+Brown PC
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: ETA WIA Adult and Dislocated Workers
                                       Report No. 18-10-004-03-390
                                                                  Prepared by WithumSmith+Brown PC
                                         For the U. S. Department of Labor – Office of Inspector General


Table of Contents 

 

Independent Auditor’s Report...................................................................................... 1


Objective 1 — How are the Recovery Act funds for WIA Adult and Dislocated
              Worker programs being spent and planned to be spent on
              employment and training services, supportive services, and
              administration as required by the Act?............................................... 5 

     Finding 1 — The local planning process at two Local Workforce Investment
                  Boards did not adequately address how Recovery Act funds for
                  WIA were planned to be spent on employment and training
                  services, supportive services, and administration. ............................... 5 

     Finding 2 — Supportive services in the form of needs-related payments are
                 being made on a limited basis or not at all. .......................................... 6 

Objective 2 — How are the Recovery Act funds being spent and planned to be
              spent to serve targeted populations as required by the Act?........... 9 

     Finding 3 — Not all LWIBs properly implemented priority of service as
                 required by the Recovery Act............................................................... 9 

Objective 3 — How are Local Workforce Investment Boards making use of the
              new flexibilities in the Recovery Act for contracting for training? . 12 

Objective 4 — How are the Recovery Act funds being spent and planned to be
              spent for training and supporting program participants for
              employment in high-demand jobs, including but not limited to,
              “green jobs” as required by the WIA program and the Recovery
              Act? ...................................................................................................... 14 
Appendices
 

         Appendix A Background ..................................................................................... 19
 
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 23
 
         Appendix C Acronyms and Abbreviations .......................................................... 27
 
         Appendix D Employment and Training Administration Response ...................... 29
 




                                                            Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                                  Report No. 18-10-004-03-390
                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  Recovery Act: ETA WIA Adult and Dislocated Workers
                                        Report No. 18-10-004-03-390
                                                                                 Prepared by WithumSmith+Brown PC
                                                        For the U. S. Department of Labor – Office of Inspector General


WithumSmith+Brown, PC
Certified Public Accountants and Consultants



8403 Colesville Road, Suite #340               March 31, 2010
Silver Spring, Maryland 20910 USA
301 585 7990. fax 301 585 7975
                                               Ms. Jane Oates
www.withum.com
                                               Assistant Secretary for Employment and Training
                                               Employment and Training Administration
Additional offices in New Jersey, New York,
Pennsylvania, Colorado and Florida
                                               200 Constitution Avenue, NW
                                               Washington, D.C. 20210

                                               The American Recovery and Reinvestment Act of 2009 (Recovery
                                               Act) was passed February 17, 2009, to preserve and create jobs,
                                               promote the nation’s economic recovery, and to assist those most
                                               impacted by the recession. The Department of Labor (DOL)
                                               received $1.75 billion in Recovery Act funds for the Workforce
                                               Investment Act (WIA) Adult and Dislocated Worker programs to
                                               supplement regular program funds. The Recovery Act emphasized
                                               expediency in spending these funds, as well as providing
                                               emphases for spending funds on employment and training
                                               activities, including training for “green jobs”, and supportive
                                               services already permitted by regular WIA legislation. In addition,
                                               for the Adult program the Recovery Act required recipients of public
                                               assistance and other low income workers receive a priority of
                                               service in receiving Recovery Act funds. Furthermore, the
                                               Recovery Act provided flexibilities that allowed for contracts with
                                               institutions of higher education and other providers for training
                                               multiple individuals. The DOL Employment and Training
                                               Administration (ETA) issued policy guidance to implement the
                                               Recovery Act, within one month of the Recovery Act’s passage,
                                               and about the time funding was disbursed to the states.

                                               Our audit objectives were to determine how (1) Recovery Act funds
                                               for the WIA Adult and Dislocated Worker programs are being spent
                                               and planned to be spent on employment and training services,
                                               supportive services, and administration; (2) the Recovery Act funds
                                               are spent and planned to be spent to serve targeted populations;
                                               (3) Local Workforce Investment Boards (LWIBs) are making use of
                                               the new flexibilities in the Recovery Act for contracting for training;
                                               and (4) Recovery Act funds are being spent and planned to be
                                               spent for training and supporting program participants for
                                               employment in high-demand jobs, including but not limited to,
                                               “green jobs” as required by the WIA program and the Recovery Act.



                                                                       Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                                             Report No. 18-10-004-03-390
                                                                   1
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

The audit included a review of the WIA Adult and Dislocated Worker Recovery Act
program planning processes at ETA headquarters, six states, and six LWIBs listed
below. In addition, we reviewed early implementation efforts, and visited eighteen local
service providers, including six community colleges. We selected the states in our
review to ensure coverage where the targeted populations in the Recovery Act were
most likely to be found based on previous WIA funding, unemployment rates, poverty
levels, and high school graduation percentages; and to provide geographic coverage.
Our findings apply to the locations we audited.

       Table 1: State and Local Workforce Investment Boards Audited
       California       City of Los Angeles Workforce Investment Board
       Michigan         Detroit Workforce Development Board
       North Carolina Charlotte-Mecklenburg Workforce Development Board
       New York         New York City Workforce Investment Board
       Florida          South Florida Workforce Investment Board
       Texas            Gulf Coast Workforce Board


Recovery Act funding provided by ETA to the six states we reviewed totaled $750
million. As of December 31, 2009, the states had obligated about $465 million or 60
percent of that amount, leaving 40 percent of the amount unobligated by the states.
Furthermore, as of that date, the states had spent about $206 million. The six LWIBs we
reviewed received $91 million from the states, of which about 73 percent was obligated
and about 18 percent was spent as of December 31, 2009.

RESULTS IN BRIEF

We found ETA issued comprehensive, timely guidance to the states on the use of
Recovery Act funds and modifying state WIA plans. After issuing this guidance, ETA
performed a readiness assessment of 209 state and local areas to determine the need
for technical assistance activities related to Recovery Act implementation. Although
Recovery Act plans at the state level generally followed the ETA guidance, we found
inconsistencies and a lack of Recovery Act provisions in two of the six local plans we
reviewed. As of March 2010, over a year after passage of the Recovery Act, one LWIB
had not yet finalized its plan for spending WIA Recovery Act funds. The state agency
responsible for approving the plan cited deficiencies in the plan including incomplete or
incorrect application of Recovery Act provisions. At another LWIB, the LWIB addressed
its plan for Recovery Act funds in a separate internal document to the state in
accordance with state policy, but the official public plan made no reference to the
Recovery Act. We found a strong positive correlation between the Recovery Act
provisions contained in written state and local plans and implementation of those
provisions by the LWIBs. Based on our inquiries, where we found the plans did not
address the Recovery Act provisions, implementation activities also did not emphasize
the Recovery Act provisions. As a result, when a plan does not adequately reflect
Recovery Act provisions and implementing guidance from ETA, the risk increases that
these funds may be spent in a way that is not consistent with Recovery Act provisions
                                            Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                  Report No. 18-10-004-03-390
                                             2
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

and ETA’s guidance. One of the LWIBs we visited had already obligated $24 million or
75 percent of its Recovery Act funding, as of December 31, 2009, without having an
adequate, approved plan in place before the funds were obligated. We found that a
likely cause of the breakdown between the state and local plans is that WIA regulations
require local plans to be amended in accordance with state policy, which makes ETA’s
oversight more challenging. ETA strongly encouraged the states to review their local
plan modification policy noting that local plans that are outdated do not reflect the
economic downturn or strategies altered by the additional funds available through the
Recovery Act.

On our first objective, in terms of how Recovery Act funds were spent, we found that
after the states’ portion of the Recovery Act funding was allocated in accordance with
various regular WIA grant and Recovery Act funding provisions, the LWIBs received 85
percent of total Recovery Act funding for the Adult program and 60 percent for the
Dislocated Worker program. In accordance with regular WIA regulations, state agencies
retain 15 percent, which includes 5 percent for administration, of both Adult and
Dislocated Worker funds for statewide activities. An additional 25 percent of the
Dislocated Worker funding is retained by the states for State Rapid Response activities,
as required by law. At the LWIB level, 10 percent of the funds received by them for each
program — Adult and the Dislocated Worker programs — are allowed to be used to
administer the program. The remaining funds are required by the Recovery Act to be
spent on employment and training activities and supportive services including childcare
and transportation expenses, and needs-related payments. Information we received
from LWIBs shows that supportive services overall accounted for up to 10 percent of
WIA Recovery Act funding for Adult and Dislocated Worker programs. Based on our
limited examination of financial reports at the LWIBs, the funds expended as of
December 31, 2009, appear to be consistent with these WIA cost allocations. We found
mixed results at the LWIBs in terms of making needs-related payments to provide living
expenses to eligible individuals participating in job training programs. We found three of
the LWIBs are making these payments on a limited basis, two do not intend to make
them, and one is still planning to implement needs-related payments. Many cited
financial funds delivery systems as problematic in getting funds to those in dire need
who often do not have checking accounts and must use expensive check cashing
services to cash any check they may receive.

Despite being adequately addressed in federal and state plans, there are mixed results
at the LWIBs in terms of how well they address targeted populations in their plans,
potentially limiting how well Congressional intent will be met in providing benefits to
these populations. Six states indicated they are addressing these priorities in
accordance with the Recovery Act. Two LWIBs failed to address the priority of service
to recipients of public assistance and other low-income individuals in the Adult program
as required by the Recovery Act.

All six LWIBs we audited are making use of the new flexibilities in the Recovery Act for
contracting for training that allows LWIBs to contract directly with institutions of higher
education or other providers to facilitate training of multiple individuals in high-demand
                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                              3
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

occupations. Contracts with the providers in this area include training for employment in
the health care, pharmaceutical, transportation, construction, automotive, air
conditioning and heating, and alternative energy industries. The number of individuals to
be served as a result of the new flexibility is still to be determined as the programs are
rolled-out by the individual providers.

All states and LWIBs reviewed included detailed data and analysis on high-demand
industries and occupations, including “green jobs,” in their plans. Training services for
WIA Adult and Dislocated Worker programs are required with few exceptions, to be
linked to occupations in high demand or have the potential for sustained growth. In
addition, the Recovery Act includes several provisions encouraging the expansion of
“green jobs” training.

We recommend the Assistant Secretary for Employment and Training take actions to
better ensure Recovery Act funds for the WIA Adult and Dislocated Worker programs
are spent as intended by the Congress. These actions should focus on developing
strategies to promote consistency in the LWIB plans with Recovery Act provisions and
timeliness in developing those plans.

ETA provided comments on our report (1) disagreeing with our conclusion that
deficiencies in the New York City LWIB plan increased the risk $24 million already
obligated by the LWIB may not be spent in accordance with specific Recovery Act
provisions, (2) stating that the priority of service provision of the Recovery Act only
applies to the WIA Adult program potentially affecting only $11.4 million of the $24
million, and (3) suggesting a table in our report was incorrectly labeled causing the table
to be misleading.

The deficiencies in the New York draft modified plan are significant and affect both
priority of service provisions and other provisions of the Act that ETA referred to as
qualitative changes not affecting funding. Those provisions included (1) providing
veterans priority of service in conjunction with priority of service for low income
individuals as required under the Recovery Act and (2) having a list, required by WIA, of
high-demand occupations linked directly to training services provided by both the Adult
and Dislocated Worker programs. New York City’s draft modified plan subsequently
included a list, which was not to be effective until January 2010. The absence of an
adequate approved plan addressing Recovery Act provisions for both programs
increases the risk the $24 million obligated as of December 31, 2009, for both the Adult
and Dislocated Worker programs, may not be spent in a way consistent with the
Recovery Act. We made some editing adjustments to table information to remove
potential ambiguities in the report.




                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                              4
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

RESULTS AND FINDINGS

Objective 1 — How are the Recovery Act funds for WIA Adult and Dislocated
             Worker programs being spent and planned to be spent on
             employment and training services, supportive services, and
             administration as required by the Act?


Finding 1 — The local planning process at two Local Workforce Investment
            Boards did not adequately address how Recovery Act funds for WIA
            were planned to be spent on employment and training services,
            supportive services, and administration.

ETA issued comprehensive policy guidance (TEGL 14-08) on March 18, 2009, one
month after the Recovery Act was signed and at the time the WIA Recovery Act funds
were awarded to the states. This comprehensive guidance addressed how the funds for
the WIA Adult and Dislocated Worker Programs are to be spent on employment and
training services, supportive services, and administration as required by the Recovery
Act, as well as provided state planning requirements. TEGL 14-08 stated that each
Governor sets the policy for when a local plan must be modified, such as significant
changes in economic conditions and changes in financing available to the programs.
ETA encouraged the states to review their local plan modification policy and to require
local plans to be modified in accordance with states’ policies. ETA noted that local plans
that are outdated do not reflect the economic downturn or strategies altered by the
additional funds available through the Recovery Act. States were also strongly
encouraged to devise a local plan modification process that would ensure allocation of
funds to local areas within 30 days of receipt of funds by the state and the expedient
use of the funds. After issuing this guidance, ETA performed a readiness assessment of
209 state and local areas to determine the need for technical assistance activities
related to Recovery Act implementation.

We found the Recovery Act planning process for Adult and Dislocated Worker programs
at the state level generally followed ETA’s guidance. (See Appendix A for a detailed
description of the planning process.) However, we found the plan modification process
at the local level did not result in the same consistent results due to differences in state
policies. Based on our inquiries of state and local workforce officials and service
providers, we found a strong correlation between the information included in written
state and local plans and whether the Recovery Act provisions and items emphasized
by ETA guidance were being implemented. In the states of New York and Texas, we
noted what we believe to be deficiencies in the local planning process involving the
Recovery Act funds based on our on-site inquiries and review of the modified local
plans of New York City and Houston (Gulf Coast).

The New York State workforce agency requested answers to questions from its LWIBs
that addressed Recovery Act implementation. The LWIB we reviewed submitted its
                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                              5
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

modified plan to the state for review in mid-September 2009. Under WIA regulations,
the state can take up to 90 days to complete its review of the local plans. On
December 17, 2009, the state issued a letter to the New York City WIB identifying
deficiencies and clarifications needed in the plan before approval could be given. The
LWIB was given 30 days to address the deficiencies and resubmit a revised plan in mid-
January. Deficiencies in the LWIB plan cited by the state included that the plan did not
use the correct definition of the term “low income individual” as stated in WIA legislation,
the narrative on how to apply the priority of service provisions was unclear, the plan did
not contain information on outreach strategies to increase awareness of veterans’
priority of service, and the plan did not contain a list of high-demand occupations and
skills targeted for training services. The LWIB completed the revisions and resubmitted
the plan to the state within the 30-day timeframe. As of March 4, 2010, the state still
had not completed its review and approval of the plan. As of December 31, 2009, the
LWIB had obligated about 75 percent, or $24 million, of its Recovery Act funding, and
the LWIB’s original modified plan with its deficiencies remained posted on the LWIB
web site pending approval of the revised plan.

In April 2009, the Texas state workforce agency requested from the LWIBs a description
of how the local boards planned to use Recovery Act funds to assist the state in
preparing its modified state plan. The Gulf Coast (Houston) LWIB submitted a four-page
document to the state in response. However, we found that the official public plan for
program year 2009 makes no reference to the Recovery Act or its provisions. We also
noted that this local plan was one of two local plans we reviewed that is not posted on
the LWIB web site. State officials stated that this process was followed in accordance
with state policy. However, TEGL 14-08 states that the first guiding principle in using
Recovery Act funding is transparency and accountability. For the official public plan to
be silent as to the use of Recovery Act funding and not readily available for public
review, increases the risk that the funding will not be spent in accordance with Recovery
Act provisions.

In both of these states, state policy regarding modification and approval of the local
plans that was adequate under WIA regulations was not sufficient to address the unique
circumstances associated with Recovery Act. The legislative intent of Congress was for
this funding to be spent as quickly as possible and with increased transparency and
accountability. In both New York City and Houston this intent was not met and as a
result, there is an increased risk that these funds may not be spent in a way that is
consistent with Recovery Act provisions as described in ETA’s guidance. This risk is
partially mitigated in Houston based on our review and assessment of other planning
and implementation activities that did address certain Recovery Act provisions.


Finding 2 — Supportive services in the form of needs-related payments are being
            made on a limited basis or not at all.

Information we received from LWIBs shows supportive services overall accounted for
up to 10 percent of WIA Recovery Act funding for Adult and Dislocated Worker program
                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                              6
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

funds provided to them. Based on our examination of financial reports at the LWIBs, the
funds expended as of December 31, 2009, appear to be consistent with these cost
allocations. In accordance with regular WIA regulations, state workforce agencies
retain 15 percent, which includes 5 percent for administration, of both Adult and
Dislocated Worker funds for statewide activities. An additional 25 percent of the
Dislocated Worker funding is retained by the state for State Rapid Response activities,
as required by law. After the states’ portion of Recovery Act funding allocated to the
state in accordance with various regular WIA grant and Recovery Act funding
requirements, the LWIBs received 85 percent of total Recovery Act funding for the Adult
program and 60 percent for the Dislocated Worker funds. At the LWIB, 10 percent of the
funds received by them for each program — Adult and the Dislocated Worker programs
— are allowed to be used to administer the program. The remaining funds are required
by the Recovery Act to be spent on employment and training activities and supportive
services including childcare and transportation expenses, and needs-based payments.

The most common types of supportive services provided under the Recovery Act
include child care reimbursements, transportation, and needs-related payments.
Although not specifically required by law or regulation to provide needs-related
payments, these payments are emphasized in the Recovery Act legislation (P.L. 111-5,
Title VIII).

In addition, TEGL 14-08 also states:
     Furthermore, the law requires states to ensure that supportive services and
     needs-related payments described in WIA section 134(e)(2) and (3) are made
     available to support the employment and training needs of these priority
     populations. The provision of supportive services and needs-related payments
     should also be a focus for the Recovery Act Dislocated Worker formula funds.
     [emphasis added]
     The Recovery Act specifically emphasizes the authority to use these funds for
     supportive and needs-related payments to ensure participants have the
     means to pay living expenses while receiving training. This should allow
     workers to pursue training of sufficient duration to acquire skills and credentials of
     value that will connect them to emerging jobs as the economy recovers. [emphasis
     added]

Information we received from LWIBs shows supportive services overall accounted for
up to 10 percent of WIA Recovery Act funding for Adult and Dislocated Worker
programs. The one area in which we found supportive services were being administered
differently was for needs-related payments. Needs-related payments are a form of
supportive service designed to provide living expenses to those in need in order to allow
them to participate in job-training programs. We found three of the LWIBs are making
these payments on a limited basis, two do not intend to make them, and one is still
planning to implement needs-related payments. (See Table 2 below.)


                                            Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                  Report No. 18-10-004-03-390
                                             7
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

             Table 2: LWIBs and Needs-Related Payments

                                                         Provides   Planning to
                                                          Limited     Provide
                                                          Needs-      Needs-
             LWIB City     LWIB Name                      Related     Related
                                                         Payments   Payments
             Los Angeles   City of Los Angeles             YES          N/A
                           Workforce Investment
                           Board
             Detroit       Detroit Workforce               YES          N/A
                           Development Board
             Charlotte     Charlotte-Mecklenburg           YES          N/A
                           Workforce Development
                           Board
             New York      New York City Workforce         NO          YES
             City          Investment Board
             Miami         South Florida Workforce         NO           NO
                           Investment Board
             Houston       Gulf Coast Workforce            NO           NO
                           Board

The New York City modified local plan detailed how and when needs-related payments
will be made, but at the time of our fieldwork, these payments had not yet begun.

Several LWIBs indicated that by not making these payments, training could be provided
to a larger number of people. A common hindrance also indicated by the LWIBs was the
lack of a viable payment mechanism to make these payments due to the unique
circumstances of this population. Several cited financial funds delivery systems as
problematic in getting funds to those in dire need who often do not have checking
accounts and must use expensive check cashing services to cash any check they may
receive. Another LWIB indicated that these participant payments would be high-risk, in
that the documentation required to support the eligibility and need for these payments is
unclear, therefore increasing the risk of fraud or abuse and audit scrutiny.

While the reasons provided for not making needs-related payments varied, the intent of
Congress is to ensure that supportive services and needs-related payments are
available to support the training needs of priority populations. The need to spend
Recovery Act funding quickly coupled with the lack of a viable payment mechanism and
unclear documentation requirements have hindered Congressional intent being met.




                                            Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                  Report No. 18-10-004-03-390
                                             8
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


Objective 2 — How are the Recovery Act funds being spent and planned to be
              spent to serve targeted populations as required by the Act?


Finding 3 — Not all LWIBs properly implemented priority of service as required by
            the Recovery Act.

We found all six state plans and four of the six local plans addressed Recovery Act
priority of service requirements. However, two LWIBs did not address the priority of
service requirement for low income and public assistance recipients in their plans, and
based on our inquiries at the local level, there were no specific implementation activities
planned to ensure these populations are being served.

The Recovery Act requires recipients of public assistance and other low-income
individuals as described in the WIA Act Section 134(d)(4)(E) to receive priority in
receiving Recovery Act funds for Adult employment and training activities. Under regular
WIA funding, however, priority of service is only required to be applied if it is determined
by the state or LWIB that their funds are limited. The Recovery Act requires priority of
service be applied regardless of funding limitations. TEGL 14-08, issued by ETA,
requires states to outline their plans for implementing priority of service.

Further, the Jobs for Veterans Act (P.L. 107-288) and its implementing regulations (20
CFR 1010.230) require states to insure priority of service is applied to veterans and
eligible spouses. When the veteran’s priority is applied in conjunction with other
statutory priorities like the Recovery Act, veterans and eligible spouses who are also
members of the Recovery Act priority group must receive the highest priority within that
group, followed by non-veteran members of the Recovery Act priority group.

We reviewed the local plans and met with local officials in one LWIB in each state. We
found the LWIBs in Detroit, Charlotte, Miami, and Los Angeles addressed the priority of
service requirements while the LWIBs in New York City and Houston did not.




                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                              9
                                                             Prepared by WithumSmith+Brown PC
                                    For the U. S. Department of Labor – Office of Inspector General



         Table 3: Local Plan Describes Application of Priority of Service
                                                                             To Veterans And
                                                                             Eligible Spouses
                                                                              in Conjunction
                                             To Recipients of Public          with Priority of
                                            Assistance and Other Low          Service to Low
                   LWIB Name                   Income Individuals           Income Individuals
         City of Los Angeles                          YES                           YES
         Workforce Investment Board
         Detroit Workforce                             YES                        YES
         Development Board
         Charlotte-Mecklenburg                         YES                        YES
         Workforce Development
         Board
         New York City Workforce                       NO                          NO
         Investment Board
         South Florida Workforce                       YES                        YES
         Investment Board (Miami)
         Gulf Coast Workforce Board                    NO                          NO
         (Houston)

The New York City and Houston LWIB WIA plans recognized the priority of service for
veterans and eligible spouses, but the plans included pre-Recovery Act criteria allowing
circumstances under which priority of service for low income individuals would not be
required to be applied. As indicated, this policy is in accordance with the WIA formula
fund legislation but does not comply with the Recovery Act. This error was corrected in
the New York City draft modified plan based on the Recovery Act, and submitted to
New York State for approval. As of March 4, 2010 the modified plan had not been
approved and posted on the New York City web site.

We found the following key features related to priority of service at the local level
include:

       Table 4: Key Features on Priority of Service at the Local

                    LWIB                                       Key Features
            City of Los Angeles
        Developed three new service programs to deliver
           Workforce Investment 
       training to targeted populations:
                    Board 

                                        1) Vocational Training Bridge to provide academic
                                           remediation;
                                        2) High-growth, high-wage industry sector training
                                           program; and
                                        3) Sector-Based Internship Academy for older youth.




                                                  Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                        Report No. 18-10-004-03-390
                                                  10
                                                          Prepared by WithumSmith+Brown PC
                                 For the U. S. Department of Labor – Office of Inspector General



       Table 4: Key Features on Priority of Service at the Local
            Detroit Workforce        Performed quarterly outreach efforts in the community to
               Development           inform and educate them about the labor market.
                  Board
                                     Veterans’ resumes will appear at the top of employer
                                     searches in relevant skill categories.

                                     Amended the current priority of service plan, to allow the
                                     department to serve employees of local government
                                     agencies.
         Charlotte-Mecklenburg       Contracted with a local community college to provide
         Workforce Development       training to approximately 200 eligi ble participants,
                 Board               including low-income individuals, acquire e ntry-level
                                     skills in 10 selected occupations.

         New York City Workforce     No key features noted.
            Investment Board
         South Florida Workforce     Established Designated Target Areas (DTAs), which
           Investment Board,         geographically identified pockets of low-income
                  Miami              individuals, reserving the use of Recovery Act funds for
                                     individuals located in these DTAs, and incorporating the
                                     DTAs into the electronic employment database;

                                     Outreach activities to ta rgeted populations, including
                                     mobile One-Stop Centers, door-to-door visits, and
                                     phone calls;

                                     Brochures, posters and handouts regarding veterans
                                     services at One-Stop Centers;

                                     Establishing a priority ranking system in the electronic
                                     database to be used for referring candidates for training,
                                     for job op enings, or for p erforming searches on certain
                                     priority groups;

                                     Veterans status information captured in the ele ctronic
                                     employment database is used when sorting through
                                     multiple candidates for the same position; and

                                     Specific programs targeting priority populations.
          Gulf Coast Workforce       No key features noted.
            Board, Houston

Where we found Recovery Act priority of service requirements for low income
individuals were not adequately addressed, the LWIBs had not interpreted the
requirements to be different from WIA regulations. As a result, there is an increased risk
that these targeted populations are not being adequately served in these local areas in
accordance with the Recovery Act.




                                                Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                      Report No. 18-10-004-03-390
                                                11
                                                            Prepared by WithumSmith+Brown PC
                                   For the U. S. Department of Labor – Office of Inspector General




Objective 3 — How are Local Workforce Investment Boards making use of the
              new flexibilities in the Act for contracting for training?

We found the LWIBs were making use of this new flexibility to varying degrees. The
Recovery Act included a provision that local boards may enter into contracts with an
institution of higher education or other eligible training provider if the board determines it
would facilitate training of multiple individuals in high-demand occupations without
limiting customer choice. Prior to passage of the Recovery Act, educational institutions
and training providers were generally only able to provide training through the use of a
student’s individual training account (ITA) and were required to be on the state’s list of
eligible providers.

Because this type of contracting is mostly a function of the local boards, we targeted our
efforts at the six LWIBs we vis ited. We reviewed the local plans, discussed the plan s
with local officials, made i nquiries of one educational inst itution, and reviewed other
relevant information. The number of individuals to be served as a result of this Recovery
Act provision is still t o be determined, but the following t able summarizes the extent to
which the LWIBs are planning to use this new flexibility.

Table 5: Use of Institutions of Higher Learning
      State          Status                         Training Focus              Training Classes
                                                                                Planned/Provided
  California/Los     Awarded a contract     Health Care; Health Care        LA Community College
    Angeles	         to one local           Education; Transportation       District plans to run
                     community college                                      courses as part of the
                     district.                                              High Growth sector
                                                                            Initiative.
 Michigan/Detroit	  Contracted with         Construction trades, welding    Michigan Technical
                    technical education     manufacturing/machinists,       Education Centers
                    centers, which are      automotive technician,          provide customized
                    part of the             information technology, and     training, certificate
                    community college       nursing                         programs, and college
                    system                                                  degree programs.
      North 
       Entered into a          Healthcare, Professional and    Central Piedmont
Carolina/Charlotte
 $200,000 contract       Technical Services              Community College
                    with a community                                        offers high demand
                    college to cover 200                                    certificate training
                    students.                                               programs including
                                                                            Medical
                                                                            Reimbursement,
                                                                            Medical Office
                                                                            Administrative
                                                                            procedures, Heating
                                                                            and Air Conditioning,
                                                                            Development
                                                                            Disabilities Specialist,
                                                                            and Pharmacy
                                                                            Technician.

                                                  Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                        Report No. 18-10-004-03-390
                                                  12
                                                            Prepared by WithumSmith+Brown PC
                                   For the U. S. Department of Labor – Office of Inspector General

Table 5: Use of Institutions of Higher Learning
      State          Status                          Training Focus              Training Classes
                                                                                Planned/Provided
 New York/New       Partnered with a         Healthcare                      The City University of
   York City        university system for                                    New York increased its
                    approximately 9                                          focus on cohort training,
                    training programs;                                       specifically in the
                    partnered with five                                      healthcare industries,
                    community-based                                          offering associate
                    organizations for 12                                     degree programs in
                    training programs;                                       Registered Nursing;
                    and partnered with                                       Radiology Technician;
                    two other institutions                                   Paramedic; and
                    for five training                                        Electrical Technician.
                    programs.
  Florida/Miami     Contracted with a        Healthcare                      Miami Dade College will
                    community college                                        provide training to
                    to conduct a nursing                                     approximately 40
                    program for                                              students in nursing. The
                    approximately 40                                         intent is to purchase
                    students; working                                        cohorts of training
                    with employers who                                       programs.
                    will guarantee job
                    placements.
 Texas/Houston      Contracted with 11       Educational Services, Health    Houston Community
                    training providers,      Services, Specialty Trade       College has entered
                    including 7 colleges.    Contractor, and etc.            into 1 contract to
                                                                             operate 3 programs as
                                                                             a result of the Recovery
                                                                             Act to provide teacher
                                                                             certification; green job
                                                                             training (250 individuals
                                                                             in various energy
                                                                             efficient occupations
                                                                             such as solar panel
                                                                             installation); and pipe
                                                                             designers and drafter.

Based on our discussions with state and local workforce officials as well as community
colleges, this new flexibility is expected to facilitate the training of larger numbers of
individuals which has increased the ability of the One-Stop Centers to better meet the
high demand for employment and training assistance in the current economy.




                                                   Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                         Report No. 18-10-004-03-390
                                                   13
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General


Objective 4 — How are the Recovery Act funds being spent and planned to be spent
              for training and supporting program participants for employment in
              high-demand jobs, including but not limited to, “green jobs” as
              required by the WIA program and the Recovery Act?

We found that all the states and LWIBs generally included detailed data and analysis in
its modified plans of industries and occupations with projected short- and/or long-term
growth. These analyses were frequently supplemented with additional information, such
as key skills and training demands needed for these growth occupations and industries.
High demand occupations in the six states we reviewed included:

               Table 6: High Demand Occupations
                         State 	              High Demand Career Areas
                        California	      Professional and Business Services;
                                         Government (includes public
                                         education);
                                         Health Care and Social Assistance;
                                         Accommodation and Food Services;
                                         Retail Trade.
                        Michigan	        Healthcare Practitioners and
                                         Technical Occupations; Business and
                                         Financial Operations; Computer and
                                         Mathematical Occupations;
                                         Healthcare Support Occupations;
                                         Community and Social Services
                                         Occupations
                     North Carolina	     Education and Health; Trade,
                                         Transportation and Utilities; and
                                         Professional and Business Services.
                        New York	        Healthcare; Education; Manufacturing,
                                         Information Technology, Finance,
                                         Communications; Construction;
                                         Manufacturing
                         Florida	        Educational services; Health care; 

                                         government; Professional and 

                                         Technical Services; Construction. 

                         Texas	          Educational Services, Health Care
                                         Services, Food Services;
                                         Administrative and Support Services;
                                         Professional, Scientific, and Technical
                                         Services.

Employment and training services provided under WIA for the Adult and Dislocated
Worker programs are required with few exceptions by WIA to be directly linked to
occupations that are in demand in the local area or for occupations determined by the
local board to be in sectors of the economy that have a high potential for sustained
demand or growth. Therefore, the Recovery Act did not impose any new requirements
for the occupations or industries that training should be provided for. TEGL 14-08 also
emphasizes that through the Recovery Act, a number of federal programs will receive
                                              Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                    Report No. 18-10-004-03-390
                                              14
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

large investments in programs and projects that could create “green jobs.” ETA
encouraged states to recognize opportunities to prepare workers for green jobs related
to other sources of federal funding, and to expand existing training programs that have
the potential to prepare workers for careers in renewable energy and other green jobs.
ETA also awarded competitive grants to states for green jobs training initiatives, which
were outside the scope of our audit.

Green jobs initiatives are primarily being coordinated at the state level. We found the
state and LWIBs in the early stages of planning and implementing activities related to
green jobs training. Activities included performing green jobs surveys and data
analysis, developing green jobs definitions, producing a green jobs report, incorporating
green jobs components into job searches, mapping federal and state stimulus programs
to green sectors and related occupations, and identifying skills required for in-demand
green industries.

The LWIBs plan to identify and implement applicable training programs, in conjunction
with other state and local agencies, as this initiative goes forward. However, in the
short-term, the increased demand for training services in the current economy may
result in Recovery Act funding primarily being applied to job training in other high-
demand sectors.
                                  -------------------------------


We found ETA issued comprehensive, timely guidance to the states on the use of
Recovery Act funds and modifying state WIA plans. Although plans for implementing the
Recovery Act appeared adequate at the federal and state levels, we found
inconsistencies and the lack of Recovery Act provisions in local plans. For example, as
of March 2010, over a year after passage of the Recovery Act, one LWIB had not yet
finalized its plan. The state agency responsible for approving the plan cited deficiencies
in the plan including incomplete or incorrect application of Recovery Act provisions. At
another LWIB, the LWIB addressed its plan for Recovery Act funds in a separate
internal document to the state in accordance with state policy, but the official public plan
made no reference to the Recovery Act. We found a strong positive correlation between
the Recovery Act provisions contained in written state and local plans and
implementation of those provisions by the LWIBs. Based on our inquiries, where we
found the plans did not address the Recovery Act provisions, implementation activities
also did not emphasize the Recovery Act provisions. As a result, when a plan does not
adequately reflect Recovery Act provisions and implementing guidance from ETA, the
risk increases that these funds may be spent in a way that is not consistent with
Recovery Act provisions and ETA’s guidance. One of the LWIBs we visited had already
obligated $24 million or 75 percent of its Recovery Act funding, as of December 31,
2009, without having an adequate, approved plan in place before the funds were
obligated. We found that a likely cause of the breakdown between the state and local
plans is that WIA regulations require local plans to be amended in accordance with
state policy which makes ETA’s oversight more challenging. While we found local plan


                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                             15
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

modification processes did follow states’ policies, as required by WIA regulations, some
plans did not adequately address the key provisions of the Recovery Act.


Recommendation

We recommend that the Assistant Secretary for Employment and Training take actions
to better ensure Recovery Act funds for the WIA Adult and Dislocated Worker programs
are spent as intended by the Congress. These actions should focus on developing
strategies to promote consistency in the LWIB plans with Recovery Act provisions and
timeliness in developing those plans.

We appreciate the cooperation and courtesies that ETA and state and local workforce
personnel extended to us during this audit.




Nancy E. Davis CPA CGFM
Partner
WithumSmith+Brown PC




                                            Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                  Report No. 18-10-004-03-390
                                            16
                                        Prepared by WithumSmith+Brown PC
               For the U. S. Department of Labor – Office of Inspector General




Appendices 





                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                   Report No. 18-10-004-03-390
                             17
                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  Recovery Act: ETA WIA Adult and Dislocated Workers
                                        Report No. 18-10-004-03-390
                  18
                                                                Prepared by WithumSmith+Brown PC
                                       For the U. S. Department of Labor – Office of Inspector General

                                                                                                  Appendix A
Background

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of March 12, 2010, Congress provided $70.6 billion to DOL (See
Table 1 below). Title VIII of the Recovery Act provided to the Department of Labor
(DOL) $1.75 billion for the Workforce Investment Act (WIA) Adult and Dislocated Worker
programs to supplement annual WIA appropriations to the states.

Table 1: Department of Labor Recovery Act Funding, as of March 12, 2010

                                                                              Amount a
Program                                                                      (millions)          Percent
Unemployment Insurance                                                          $65,687           93.00
Training and Employment Services                                                   3,950            5.59
State Unemployment Insurance and Employment
Service Operations                                                                    400           0.57
Community Service Employment for Older Americans                                      120           0.17
National Emergency Grants for Health Insurance
Coverage                                                                              150           0.21
Job Corps                                                                             250           0.35
Departmental Management                                                                80           0.11 

Total                                                                            $70,637b         100.00 

a
  – The amounts other than “Unemployment Insurance” were obtained from the Recovery Act dated February 17,
2009. The “Unemployment Insurance” amount was provided by the Office of the Assistant Secretary for
Administration and Management, DOL, and includes amounts made available for Federal and State Extended
Benefits, Extension of Emergency Unemployment Compensation, 2008, and Federal Additional Unemployment
Compensation programs.
b
  – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
Recovery Act activities.

The WIA Adult program provides employment and training services to assist all adults
eighteen years and older to find meaningful employment. Where funds are limited, a
priority of service for intensive and training services must be given to recipients of public
assistance and other low-income individuals. The WIA Dislocated Worker program
primarily serves individuals who have been terminated or laid off and who are unlikely to
return to a previous industry or occupation. The program provides a range of services
that include job search assistance and skills retraining to help eligible jobseekers re-
enter the workforce with benefits and the prospect of a more secure future.


                                                        Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                              Report No. 18-10-004-03-390
                                                        19
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

The Recovery Act includes three primary provisions related to these programs:

     It provides Recovery Act funding for WIA employment and training activities
      including supportive services and needs-related payments.
    It requires recipients of public assistance and other low income individuals
      regardless of funding limitations be given priority in receiving services.
   	 It provides that a local board may award a contract to an institution of higher
      education or other eligible training provider if the local board determines that it
      would facilitate the training of multiple individuals in high-demand occupations
      and the contract does not limit customer choice.

WIA regulations (20 CFR 661.220 and 20 CFR 661.345-355) define the program
planning process to be followed at both the state and local levels in order to be eligible
for annual WIA funding. It requires at the state level:

       The State Plan must be submitted in accordance with planning guidelines issued
       by the Secretary of Labor. The planning guidelines set forth the information
       necessary to document the State’s vision, goals, strategies, policies and
       measures for the workforce investment system (that were arrived at through the
       collaboration of the Governor, chief elected officials, business and other parties),
       as well as the information required to demonstrate compliance with WIA, and the
       information detailed by WIA and these regulations….

Modifications to the state plans may be required from time to time when “changes in
federal or state law or policy substantially change the assumptions upon which the plan
is based, or when states’ vision, strategies or policies change.”

On March 18, 2009, in response to the passage of the Recovery Act and in coordination
with the disbursement of funds to the states, the ETA issued Training and Employment
Guidance Letter (TEGL) No. 14-08, Guidance for Implementation of the Workforce
Investment Act and Wagner-Peyser Act Funding in the American Recovery and
Reinvestment Act of 2009 and State Planning Requirements for Program Year 2009.
The purpose of this TEGL was to provide policy guidance on the use of Recovery Act
funds, as well as specific instructions for modifying state plans. ETA required that
existing state plans be extended for an additional year, July 1, 2009, through June 30,
2010, and modified to address how states will use funding under the Recovery Act and
meet the growing demand for workforce services in the current economy. Modified
plans were to be submitted to ETA for review by June 30, 2009. ETA indicated that
these state plans would be used to communicate to the public each state’s plan for
implementing Recovery Act funds and as a baseline for monitoring states’
implementation.

In addition, in April and May of 2009, ETA undertook a Recovery Act readiness
assessment and technical assistance consultation process and visited 209 state and
local areas. This assessment combined with input from six Recovery and
Reemployment forums held throughout the country, provided ETA with information
                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                             20
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

necessary for planning and conducting technical assistance activities. In addition, ETA
held a series of forums, webinars, teleconferences, and meetings and posted numerous
technical assistance guidelines to its recovery website.

TEGL 14-08 also stated that each Governor sets the policy for when a local plan must
be modified, such as significant changes in economic conditions and changes in
financing available to the programs. ETA encouraged the states to review their local
policy and to require local plans to be modified in accordance with states’ policies.
States were also strongly encouraged to devise a local plan modification process that
would ensure allocation of funds to local areas within 30 days of receipt of funds by the
state and the expedient use of the funds.

Recovery Act funding was disbursed to the states in accordance with the regular WIA
grant funding formulas. State workforce agencies retain 15 percent, which includes 5
percent for administration, of both Adult and Dislocated Worker funds for statewide
activities. An additional 25 percent of the Dislocated Worker funding is retained by the
state for State Rapid Response activities. The remaining 85 percent of Adult program
funds and 60 percent of Dislocated Worker funds are allocated to the LWIBs based on
WIA program funding formulas. At the local level, 90 percent of the funding received is
to go to provide employment and training activities, childcare and transportation
expenses, and needs-related payments, all of which are typically referred to as
supportive services; and 10 percent is to be used for administration.




                                            Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                  Report No. 18-10-004-03-390
                                            21
                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  Recovery Act: ETA WIA Adult and Dislocated Workers
                                        Report No. 18-10-004-03-390
                  22
                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

                                                                               Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The objectives of our audit were to determine:
   1. How are the Recovery Act funds for WIA Adult and Dislocated Worker programs
      being spent or planned to be spent on employment and training services,
      supportive services, and administration as required by the Act?
   2. How are the Recovery Act funds being spent and planned to be spent to serve
      targeted populations as required by the Act?
   3. How are Workforce Investment Boards making use of the new flexibilities in the
      Recovery Act for contracting for training?
   4. How are the Recovery Act funds being spent and planned to be spent for training
      and supporting program participants for employment in high-demand jobs,
      including but not limited to, “green jobs” as required by the WIA program and the
      Recovery Act?
Scope
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted our fieldwork at the ETA National Office in Washington,
D.C. and various states and Local Workforce Investment Boards.

We audited ETA’s, states’, and LWIBs’ planning efforts related to Recovery Act funding
for WIA Adult and Dislocated Worker programs. We also observed early implementation
efforts by those entities where possible. In order to ensure adequate audit coverage
and to meet the objectives of the audit, we selected six states, using a two-stage
approach; the first stage to include the dollar amount of the funding, and the second
stage to include other qualitative factors in support of the audit objectives. We then
selected one LWIB in each of the following states. Our findings apply to the locations we
audited.
                   State                                  LWIB City
                   California                             Los Angeles
                   Florida                                Miami
                   Michigan                               Detroit
                   New York                               New York
                   Texas                                  Houston
                   North Carolina                         Charlotte


                                            Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                  Report No. 18-10-004-03-390
                                            23
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

Our performance audit was not designed to, and we did not, perform a financial audit of
the amounts obligated or expended at any of the states and LWIBs.

Methodology

To accomplish our audit objectives, we obtained an understanding of the Recovery Act
Title VIII, which provides funding and outlines the requirements for the WIA Adult and
Dislocated Workers programs. We also conducted interviews with ETA officials from the
Office of Workforce Investment and reviewed implementation guidance including TEGL
14-08 and other documentation. Further, we reviewed ETA’s website and Recovery.gov
for Recovery Act-related material.

We judgmentally selected six states to conduct on-site fieldwork at both the state and
local level. In selecting the states, our objective was to achieve significant program
coverage in terms of Recovery Act dollars to be expended, adequate geographic
coverage, and the potential to cover the largest concentrations of priority populations. In
order to achieve these objectives, we used an upper-level threshold of $50 million of
total Adult and Dislocated Worker Recovery Act funding to reduce the potential list of
states to nine. We then further analyzed these nine states and ranked them using the
following factors: 1) unemployment rate, 2) civilian labor workforce 3) poverty
percentage, and 4) high school diploma percentage. We gave each state a combined
ranking and selected the top six ranked states. We reviewed the geographic regions of
the top six states and determined they provided adequate coverage.

Within each state, we visited one LWIB. In the absence of detailed funding allocation
information at the LWIB level in each state, we selected the largest cities in the states,
either in terms of total population or total civilian workforce. We also considered such
factors as the unemployment rate of the city compared to the state’s overall
unemployment rate, as well as the percentage of individuals below the poverty level.
This resulted in the selection of the six LWIBs identified in this report.

We collected data on modified state and local plans and uses of Recovery Act funds
during interviews and follow-up meetings with state and local officials. Based on our
examination of this information, we consider these data sufficiently reliable for the
purposes of providing background information on Recovery Act funding for this report.
Our selection of states and local WIBs is not a random selection and therefore cannot
be generalized to the total population of state and local agencies.

At the state level, we interviewed State Workforce Agency/State Workforce Investment
Board directors and program staff, reviewed the modified state plans and compared the
plans to the guidance in TEGL 14-08 as it related to our audit objectives. We also
reviewed state waiver requests and guidance issued to the LWIBs regarding the
Recovery Act and modified local plans.




                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                             24
                                                        Prepared by WithumSmith+Brown PC
                               For the U. S. Department of Labor – Office of Inspector General

At the local level, we interviewed LWIB directors and program staff, reviewed state
guidance to the LWIBs and any modifications made to the local plans against Recovery
Act requirements. At each of the six LWIBs, we visited and interviewed officials from a
One-Stop Center, a training provider, and an institution of higher education, for a total of
18 local service providers.

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives, testing controls, and testing compliance with
significant laws, regulations, and other requirements. For this assignment, the ETA,
state and LWIB public plans for distributing the Recovery Act funds were considered the
specific internal controls to ensure the process works effectively and that the
Congressional intent in the Recovery Act could be met. We evaluated those plans
accordingly to determine how well they contribute to carrying out the provisions of the
Recovery Act.

Criteria
We used the following criteria to accomplish our audit:

   American Recovery and Reinvestment Act of 2009, dated February 17, 2009

   Workforce Investment Act of 1998, as amended, dated August 7, 1998

   WIA Regulations – 20 CFR 660 through 667, dated August 11, 2000

   Office of Management and Budget (OMB) Memorandums:

    o	 M-09-10: Initial Implementing Guidance for the American Recovery and
       Reinvestment Act of 2009, dated February 18, 2009

    o	 M-09-15: Updated Implementing Guidance for the American Recovery and
       Reinvestment Ac of 2009, dated April 3, 2009

   Training and Employment Guidance Letter No. 13-08 (TEGL 13-08), dated
       March 6, 2009

   Training and Employment Guidance Letter No. 14-08 (TEGL 14-08), dated
       March 18, 2009

	 Training and Employment Guidance Letter No. 10-09 (TEGL 10-09), dated
      November 10, 2009




                                             Recovery Act: ETA WIA Adult and Dislocated Workers
                                                                   Report No. 18-10-004-03-390
                                             25
                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                  Recovery Act: ETA WIA Adult and Dislocated Workers
                                        Report No. 18-10-004-03-390
                  26
                                                  Prepared by WithumSmith+Brown PC
                         For the U. S. Department of Labor – Office of Inspector General

                                                                          Appendix C
Acronyms and Abbreviations

CFR             Code of Federal Regulations

DOL             Department of Labor

DTA             Designated Target Areas

ETA             Employment and Training Administration

ITA             Individual Training Account

OIG             Office of Inspector General

OMB             Office of Management and Budget

P.L.            Public Law

Recovery Act    American Recovery and Reinvestment Act of 2009

TEGL            Training and Employment Guidance Letter

WIA             Workforce Investment Act

WIB             Workforce Investment Board

LWIB            Local Workforce Investment Board




                                       Recovery Act: ETA WIA Adult and Dislocated Workers
                                                             Report No. 18-10-004-03-390
                                       27
                            Prepared by WithumSmith+Brown PC
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: ETA WIA Adult and Dislocated Workers
                                       Report No. 18-10-004-03-390
                 28
                                                  Prepared by WithumSmith+Brown PC
                         For the U. S. Department of Labor – Office of Inspector General

                                                                          Appendix D
Employment and Training Administration Response




                                       Recovery Act: ETA WIA Adult and Dislocated Workers
                                                             Report No. 18-10-004-03-390
                                       29
                         Prepared by WithumSmith+Brown PC
For the U. S. Department of Labor – Office of Inspector General




              Recovery Act: ETA WIA Adult and Dislocated Workers
                                    Report No. 18-10-004-03-390
              30
                         Prepared by WithumSmith+Brown PC
For the U. S. Department of Labor – Office of Inspector General




              Recovery Act: ETA WIA Adult and Dislocated Workers
                                    Report No. 18-10-004-03-390
              31
                            Prepared by WithumSmith+Brown PC
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: ETA WIA Adult and Dislocated Workers
                                       Report No. 18-10-004-03-390
                 32
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
